2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402).342-4850

Web Site
www.cocklelegalbriefs.cbm
No. 20-881
HUONG L. TRAN and RICHARD W. HAZEN,
Petitioners,
v.
CITY OF HOLMES BEACH, FLORIDA;
CITY OFFICIALS in Official Capacity; FLORIDA
DEPARTMENT OF ENVIRONMENTAL PROTECTION;
DEPARTMENT OFFICIALS in Official Capacity,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of April, 2021, send out
from Omaha, NE 3 package(s) containing * copies of the REPLY BRIEF FOR PETITIONERS in the above entitled case. All
parties required to be served have been Served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:
SEE ATTACHED

S.

To be filed for:
HUONG L. TRAN, Pro Se
RICHARD W. HAZEN, Pro Se
103 29th Street
Holmes Beach, FL 34217
941-778-3519
beachlynn@angelsealodge.com

Subscribed and sworn to before me this 9th day ofApril, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NQTARY-State of N&aska
RENEE J. GOSS
My Comm. Exp. Septembers, 2023
Notary Public

Affiant

APR Wlffi

40 568

Jay Daigneault, Esq.
1001 S. Fort Harrison Ave., Ste 201
Clearwater, FL 33756
jay@cityattorneys.legal
727-733-0494 ext. 106
Attorney for the City of Holmes Beach et al.
3 copies
Samuel R. Mandelbaum, Esq.
2111 W. Swann, Ste.200
Tampa, FL 33606
Post Office Box 3373 (for mail)
Tampa, Florida 33601-3373
srm@manfitzlaw.com

(813)221-0200
Attorney for the Florida Department of Environmental Protection et al.
3 copies
Ashley Moody
Florida Attorney General
Office of the Attorney General
State of Florida
PL-01 The Capitol
Tallahassee, FL 32399-1050
oag.civil.eserve@myfloridalegal.com
2 copies
(This is to provide notice that Title 28 U.S.C. ยง 2403(b) may apply per Supreme Court
Rule 29.4(c))
oag.civil.eserve@myfloridalegal.com
(This e-serve box is to be used in the following circumstances: To provide notice of a
constitutional challenge to a statute, charter, ordinance or franchise, pursuant to Section
86.091, Fla. Stat. (2012); Rule 1.071, Florida Rules of Civil Procedure; Rule 5.1(a)(2),
Federal Rules of Civil Procedure; and iTitle 28 U.S.C.~ยง2403l
OAG Agency Clerk 850-414-3300)

